U.S. Supreme Court No. 20-1345
SUPREME COURT OF THE UNITED STATES

KEITH ARNOLD
Petitioner
v
CITY OF AUBURN,
Respondent

On Petition for Writ of Certiorari to the Supreme Court of the State of Washington

Certificate of Service
On November 19, 2020 I emailed respondent an agreement to electronic service if
respondent agreed and respondent never responded, therefore, respondent did not
object. Therefore, I certify that on Junef&L, 2021 My Petition for Rehearing Petition
for Writ of Certiorari (corrected) was emailed per U.S. Supreme Court COVID-19
WEDNESDAY, APRIL 15, 2020 ORDER to: Gregory Glen Thomsen, Attorney for
City of Auburn, 25 W. Main St, Auburn, WA 98001, phone 253-931-3030,
gthomsen@auburnwa.gov. All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct. Executed
on June fsQ . 2021.

Keith L. Arnold
Pro Se Petitioner
404 22nd St. SE, Apt. A
Auburn, WA 98002-6838
KLA@b us. illinois. e du
253-931-5183

